HHS/OIG-Audit--"Review of Selected Aspects of the Tennessee Child Support Disbursement Unit, (A-04-00-00136)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Selected Aspects of the Tennessee Child Support Disbursement Unit," (A-04-00-00136)
July 5, 2000
Complete
Text of Report is available in PDF format (2.41 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of the Tennessee Department of Human Services' (DHS) State Disbursement
Unit (SDU) for child support payments. In December 1999, Congressman Bob Clement requested that the Office of Inspector
General conduct this review and referred 16 complaint cases that were the basis for our inquiry. The objectives of our
review were to determine: (1) if the SDU's payment processing and customer service operations properly handled the cases
referred to us for examination and (2) the process DHS uses to handle interest earned on child support payments. We determined
that the DHS properly handled interest earned on undisbursed child support payments. However, our examination of records
relating to 16 custodial parents (CP) provided by Congressman Clement's office identified problems in the SDU's customer
service operation, the Tennessee Child Support Enforcement System (TCSES), and the child support payment process. The CPs
and non-custodial parents had difficulty reaching or obtaining needed assistance through the SDU customer service phone
lines. In addition, child support payments were received by CPs either late or not at all. In many instances, the SDU's
implementation problems caused the CPs to experience difficulty in obtaining needed assistance. We recommended that DHS
take steps to improve its customer service and payment processing operations as well as ensure that TCSES contains complete
and accurate information needed to properly manage cases. We also recommended that DHS take steps to quickly implement
a corrective action plan to address deficiencies cited by the Office of Child Support Enforcement and State Auditors. In
written comments to the draft report, DHS officials agreed with our findings and recommendations.